                                                 AUDIT OF


                         LOS ANGELES DISTRICT OFFICE 7(a) LOANS


                                      GLENDALE, CALIFORNIA


                                  AUDIT REPORT NO. 8-8-F-002-028


                                            September 30, 1998





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be released
to the public or another agency without permission of the Office of Inspector General.
                             U.S. SMALL BUSINESS ADMINISTRATION

                                 OFFICE OF INSPECTOR GENERAL

                                      Washington, D.C. 20416



                                                                                AUDIT
                                                                               REPORT
                                                                  Issue Date: September 30, 1998
                                                                  Number: 8-8-F-002-028

Date:          September 30, 1998

To:            Arnold Rosenthal, Associate Administrator,
                Office of Borrower and Lender Servicing

               Alberto Alvarado, District Director
                Los Angeles District Office

               Richard Taylor, Director
                Preferred Lender Program (PLP) Loan Processing Center



From:          Peter L. McClintock, Assistant Inspector General
                for Auditing

Subject:       Audit of Los Angeles District Office 7(a) Loans

        Attached is a copy of the subject audit report. The report contains two findings with eight
recommendations for the Associate Administrator, Office of Borrower and Lender Servicing; District
Director, Los Angeles District Office; and the Director, PLP Loan Processing Center.

        The recommendations in this report are subject to review and implementation of corrective
action by your office in accordance with existing Agency procedures for audit follow-up. Please
provide your management response to the recommendations within 30 days from the date of this report,
using the attached SBA Forms 1824, Recommendation Action Sheet..

      Any questions or discussions of the issues contained in this report should be directed to Garry
Duncan at 202-205-7732.


Attachment

cc: Acting Associate Administrator for Financial Assistance
                                        AUDIT OF 7 (a) LOAN PROCESSING

                                         LOS ANGELES DISTRICT OFFICE

                                            GLENDALE, CALIFORNIA



                                                    TABLE OF CONTENTS


                                                                                                                            Page

SUMMARY......................................................................................................................... i

INTRODUCTION

          A. 	Background ........................................................................................................ 1


          B. 	Audit Objective and Scope .................................................................................. 1



RESULTS OF AUDIT

Findings and Recommendations

          1. 	 SBA 7(a) Guaranteed Loans were not always Processed,
               Disbursed, and Used in Accordance with SBA Requirements............................... 2

          2. Canceled Loans were not Reported to SBA ........................................................ 9

Other Matters

          Lender Non-compliance with SBA Policies and Procedures.......................................10

          Borrower Misrepresentations ....................................................................................10

APPENDICIES

          A- Schedule of Loans Reviewed and their Status
          B- SBA Procedures Reviewed and the Related Loans with Discrepancies
          C- SBA Management Response

          D- Audit Report Distribution

                                         SUMMARY


        The audit was part of a nationwide review to determine whether 7(a) loans were
processed, disbursed, and used in accordance with Small Business Administration (SBA)
requirements. The Los Angeles District Office was assigned 1,908 loans valued at $662.1
million from March 1, 1996 to June 30, 1997. The sample loans, made to small business
concerns within the state of California, were processed by the District Office and the Preferred
Lender Program Loan Processing Center. We selected a random sample of 30 loans valued at
$10 million for review.

        SBA procedures for lenders and SBA loan officers are intended to reduce risks and
assure that only eligible loans are guaranteed. Failure to follow these procedures increases the
chance that ineligible or risky loans will be approved. We reviewed lenders' compliance with
22 such procedures. We determined that lenders did not follow at least 1 of the 22 SBA
procedures for 11 of the 30 loans reviewed.

        The noncompliance with procedures consisted of the following:

        •	 The proceeds for two loans totaling $270,000 were used either for an ineligible
           purpose or were not used in accordance with the terms of the loan agreement.
        •	 Lenders did not verify equity injections totaling $233,400 for two loans valued at
           $422,000.
        •	 Financial information was not verified with Internal Revenue Service prior to
           disbursing six loans valued at about $1.2 million.
        •	 The borrower for a [FOIA Ex.4] loan showed financial statement income that
           exceeded his average tax return income by 275 percent. The borrower also lacked
           loan repayment ability and had a poor credit history.
        •	 Available collateral was not taken to secure one loan.
        •	 Compensation agreements were not prepared for two loans totaling approximately
           $1.3 million, and the borrowers were charged prohibited fees totaling $15,600.
In addition, two loans totaling $700,000 were canceled, but the lenders did not notify SBA of
the cancellations for at least 8 months.

        During the audit, we notified the District Director that a participant in the Preferred
Lender Program had not followed SBA’s lending policies and procedures in processing three
PLP loans reviewed. When we brought this to the District Director’s attention, he immediately
issued a warning to the lender.

        As of August 31, 1998, 24 of the 30 sampled loans were current, 1 was past due, 2
were paid in full, and 3 were canceled, but SBA had not canceled one of the loans. Lender
responses regarding the loans indicated the deficiencies were due to loan officers choosing to
ignore SBA policy and unintentional loan officer errors.

       We made eight recommendations to the Associate Administrator, Office of Borrower
and Lender Servicing; the District Director, Los Angeles District Office; and the Director,


                                                i
Preferred Lender Program Loan Processing Center, all of whom agreed with the report and
recommendations.

         The findings in this report are the conclusions of the OIG’s Auditing Division based on
testing of the auditee’s operations. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing Agency
procedures for follow-up and resolution.




                                                ii
                                          INTRODUCTION


A.      BACKGROUND


         Audits of the SBA LowDoc Loan Program (a subsection of the 7(a) Loan Program) in 1996
and 1997 showed that lenders and SBA district offices were not always processing loans in compliance
with existing policies and procedures. At the request of SBA’s Office of Financial Assistance, we
initiated an audit of the 7(a) Loan Program to determine if a similar level of non-compliance exists. Our
evaluation will be presented in a summary report combining the results of eight individual audits. This
report presents the audit results for one site.

        Section 7(a) of the Small Business Act of 1958, as amended, authorizes SBA to provide
financial assistance to small businesses. SBA provides this financial assistance primarily by guaranteeing
loans made by participating lenders to small businesses. To obtain the SBA guarantee, a lender must
have continuing ability to evaluate, close, service, and liquidate loans in accordance with SBA
requirements. A Loan Guaranty Agreement between SBA and the lender requires the lender to abide
by SBA regulations and procedures and allows the lender to request SBA purchase of defaulted loans.

         Generally, SBA regulations and procedures require both the lender and SBA to review the
borrower’s eligibility, repayment ability, management qualifications, character, creditworthiness, and
adequacy of collateral for loans submitted under regular procedures. The most active and expert
lenders qualify for SBA’s Certified Lender Program (CLP) and Preferred Lender Program (PLP),
respectively. Under CLP procedures, SBA utilizes the credit presentation of the lender and makes a
credit and eligibility determination. Under PLP procedures, the Sacramento PLP Loan Processing
Center reviews loan applications solely for eligibility.

B.      AUDIT OBJECTIVE AND SCOPE

        The audit objective was to determine whether 7(a) loans (excluding special programs with
modified requirements such as LowDoc) were processed and proceeds disbursed and used in
accordance with SBA requirements. The audit was based on a statistical sample of 30 loans valued at
$10 million out of a population of 1,908 loans for $662.1 million made to small businesses in the state of
California and assigned to the Los Angeles District Office between March 1, 1996, and June 30, 1997.

        The auditors reviewed compliance with 22 procedures established by SBA to reduce risks
associated with loan making and to assure that only eligible loans are guaranteed (see Appendix B). To
make these determinations, the auditors reviewed lender and/or SBA file documentation for each loan in
the sample; interviewed borrower, lender, and SBA district office personnel; and visited businesses to
review records. Field work was performed from January through April 1998. The audit was
conducted in accordance with Government Auditing Standards.




                                                    1

                                          RESULTS OF AUDIT


FINDING 1	 SBA 7(a) Guaranteed Loans were not Always Processed, Disbursed, and Used
           in Accordance with SBA Requirements

        SBA procedures for lenders and SBA loan officers are intended to reduce risks and assure that
only eligible loans are approved. The chance that risky or ineligible loans will be approved is increased
when these procedures are not followed. In our sample, at least one processing or disbursing deficiency
was identified for 11 of the 30 loans reviewed. Noncompliance with established procedures resulted in
SBA inappropriately providing $196,000 in guarantees for three loans (sample numbers 14, 18, and
22). Corrective actions are necessary to protect guarantees totaling $433,750 for four other loans
(sample numbers 5, 8, 15, and 17). Borrowers for two additional loans (sample numbers 23 and
30) were charged fees totaling $15,600 which were not permitted by regulation and should be
refunded. No action is required to protect the guarantees for the remaining two loans (sample numbers
6 and 27) since SBA’s requirements were complied with after the loans had been disbursed.

Loan Proceeds were used for an Ineligible Purpose

        SBA approved a guarantee for a loan processed by a PLP lender where the proceeds were
disbursed and used for an ineligible purpose. The loan for [FOIA Ex. 4](sample number 14) was
approved in [FOIA Ex. 4] for working capital. The loan proceeds were disbursed to the PLP lender
and used to pay down a line of credit the borrower had with the lender. The use of proceeds could be
perceived as involving a conflict of interest. The lender should have processed the loan under regular
procedures and provided a full explanation of the debt to SBA. Because the loan was processed under
PLP procedures, SBA would not have been aware the loan proceeds would be used to reduce the line
of credit and to transfer the PLP lender's risk of loss to SBA. Since the lender did not process the loan
under regular procedures, SBA should rescind the [FOIA Ex. 5] guarantee. As of August 31, 1998,
the loan was current.

         According to Title 13 Code of Federal Regulations (CFR) Section 120.452, a lender may not
make a PLP loan that reduces its existing credit exposure for any borrower. In addition, Section
120.140 requires a lender to process the loan under regular procedures and to provide a full
explanation to SBA that the loan will repay or refinance debt owed to the lender and would reduce the
lender's exposure to a loss. Section 120.140 also prohibits a lender from engaging in transactions which
could result in a real or apparent conflict of interest.

Loan Proceeds were not used for An Approved Purpose

        The proceeds of a [FOIA Ex. 4] loan (sample number 22) were not used for the purpose
approved by SBA. Any deviation from the purpose identified in the loan agreement requires SBA
approval. The loan was approved in [FOIA Ex. 4] to purchase real estate for the expansion of a
business.

         The loan agreement required the lender to obtain satisfactory evidence that the borrower was
duly licensed before making the first disbursement. The loan agreement also stated that this provision
could not be waived without the prior consent of SBA. The lender disbursed the loan proceeds without
proof that the borrower had obtained the required business license for the location purchased.
According to the Los Angeles County Department of Licensing, the borrower did not apply for the


                                                    2

required license. The proceeds were used to purchase real estate to rent. SBA was not aware that the
terms of the loan agreement were violated, and the funds had not been used to expand the business,
until our audit. The SBA guarantee of [FOIA Ex. 5] should be rescinded.

         Based on discussions with SBA personnel during the audit, the District Director reprimanded
the lender. The lender consequently obtained a letter from the borrower stating that the loan would be
paid in full. The loan was repaid May 27, 1998.

Equity Injections were not Verified Prior to Disbursement

        Lenders did not ensure that required equity injections were made for two loans totaling
$422,000. By not complying with the loan requirements, lenders increased the risk that borrowers may
not remain committed to the business or the business may not have sufficient cash flow to sustain
operations.

          A loan for [FOIA Ex. 4] (sample number 15) for the purchase of real property for an existing
business was approved in [FOIA Ex. 4]. The loan agreement required an equity injection of $135,000
in cash prior to the first disbursement. The lender's loan file contained evidence that only $51,600 (38
percent of the required amount) was injected prior to disbursement of the loan proceeds. During our
visit to the business, the borrower could not provide acceptable proof that the remaining $83,400 had
been injected. Either the remaining injection should be made or the guarantee should be reduced to
reflect the lack of the required equity injection. As of August 31, 1998, this loan was current.

          A loan (sample number 27) was approved in [FOIA Ex. 4] to provide working capital of
[FOIA Ex. 4]. The loan agreement required the lender to have evidence that the borrower injected at
least $150,000 into the business. The lender did not obtain evidence that the borrower had injected the
required equity until April 1998, when we requested proof of the equity injection. The lender provided a
letter from the borrower's accounting firm dated 15 months after the loan proceeds were disbursed
stating the borrower had injected $112,500 into the business. The letter was not adequate evidence
and did not indicate when the injection was made. During our site visit to the borrower, we were able
to verify that the required injection had been made. As of August 31, 1998, the loan was current.

Financial Information was not Verified Prior to Disbursement

         For 6 loans totaling $1.2 million, lenders did not verify business or borrower financial
information prior to disbursement as required by the loan agreements. SBA Policy Notice 9000-941
requires lenders to obtain Internal Revenue Service (IRS) verification of the financial information of the
small business concern and for a business being purchased prior to disbursing the loan proceeds. This
requirement ensures the financial information, submitted by small businesses and used by lenders and
SBA to make loan decisions, is credible.
         A loan for [FOIA Ex. 4] (sample number 5) was approved for the purchase of business
equipment, inventory, and working capital in [FOIA Ex. 4]. As required, the lender verified the tax
returns for 1993 and 1994. The 1995 tax return was not available at the time the other returns were
verified because an extension to file the return had been granted. The business was a sole
proprietorship and even if an additional extension of time to file the tax return had been granted, it
should have been filed no later than October 15, 1996. The lender, therefore, had time to verify the
1995 tax return before the loan proceeds were disbursed in January 1997. During the audit the lender
stated that a request for verification of the 1995 tax return would be resubmitted. SBA should either


                                                     3

verify that the 1995 tax return in the loan application agrees with IRS validated data or rescind the
guarantee of [FOIA Ex. 5]. As of August 31, 1998, the loan was delinquent.

         A [FOIA Ex. 4] loan (sample number 6) was approved in [FOIA Ex. 4] to pay a specific
vendor, to provide working capital, and to pay loan fees. The loan proceeds were disbursed before the
tax verifications were received for 1992 through 1994. There was, however, no difference between the
financial information submitted by the borrower and the IRS verification. As of August 31, 1998, the
loan was current.

         A [FOIA Ex. 4] loan (sample number 8) was approved in [FOIA Ex. 4] for the purchase of
an existing business and for working capital. The lender did not verify the seller’s financial information
because the seller had not filed his 1995 tax return. After the loan was disbursed, the lender could not
obtain an IRS tax verification because the seller could not be located. Since the seller only owned the
business for one year, verification of the accuracy of the seller’s financial information is an important
element of the credit decision. The business was a sole proprietorship and the 1995 tax return should
have been filed no later than October 15,1996, if the taxpayer had been granted an additional extension
of time to file the return. Since the loan was not disbursed until January 1997, the lender would have
had time to obtain a verification. We compared the borrower’s tax return for 1997 with the seller’s
reported gross sales for 1995 and found a significant difference. The borrower’s tax return for 1997
showed [FOIA Ex. 4] in gross sales, which were about 59 per cent of the seller's reported gross sales
of [FOIA Ex. 4] for 1995. The decrease in gross sales of 41 percent in a 2-year period may be an
indication that financial information submitted by the seller was inaccurate. Since the lender did not
verify the financial information before disbursement and the seller cannot be located to authorize IRS
verification, the loan guarantee of [FOIA Ex. 5] should be rescinded. As of August 31, 1998, the loan
was current.

        A loan for [FOIA Ex. 4] (sample number 14) was approved for working capital in [FOIA Ex.
4]. The lender claimed it had complied with the IRS verification requirement for 1993 through 1995,
but could not provide any evidence that the verifications had been requested. The lender agreed to
resubmit the request for tax verifications.

         A loan for [FOIA Ex. 4] (sample number 17) was approved in [FOIA Ex. 4] for the
acquisition and refinancing of commercial properties used by an existing business. The loan files did not
contain an IRS tax verification and the lender could not explain why its former loan officer had not
requested the verification. We asked the lender to obtain the tax verification. SBA should either verify
that the tax returns in the loan application agree with IRS validated data or rescind the guarantee of
[FOIA Ex. 5]. As of August 31, 1998, the loan was current.

        A [Ex. 4] loan (sample number 18) for working capital was approved in [Ex. 4]. The lender
disbursed the loan proceeds prior to receiving tax verifications for 1993 through 1995. The verifications
showed discrepancies between the financial information provided by the borrower and the information
reported on the tax returns. The [Ex. 4] guarantee for this loan should be rescinded. As of August 31,
1998, the loan was current.

Borrower Provided Inaccurate Information, Lacked Repayment Ability, and was not
Creditworthy

        One borrower who received a [EX. 4] (sample number 18) provided inaccurate information to


                                                     4

the lender. In addition, the lender did not adequately evaluate the borrower’s repayment ability or
creditworthiness. The loan was approved by SBA on [FOIA EX. 4], and
loan proceeds were disbursed on [FOIA EX. 4]. As mentioned in the paragraph above, the loan
guarantee in the amount of [EX. 5] should be rescinded.

        •	 Inaccurate Information The lender reported the borrower had practiced law in the area
           for 20 years. The borrower's tax returns for 1993 and 1994, which were verified with IRS
           transcripts, showed no income from his law practice, nor did the lender's loan file contain
           any historical income to support the claim of being in business for 20 years. Further, the
           borrower’s copy of his 1995 tax return (which had not been filed with IRS at the time of
           loan approval) did not show any business income. For 1996, the borrower showed a
           financial statement with net income of [EX. 4&6]. This was 275 percent greater than the
           previous 3 years average non-business income reported on the tax returns. The tax returns
           showed income of [EX. 4&6] (1993), [EX. 4&6] (1994), and [EX. 4&6]. The lender's
           verification of the borrower's tax return for 1996 showed gross revenues of [EX. 4&6] and
           net income of only [EX. 4&6]. All attempts to contact the borrower were unsuccessful.
           The borrower would not return numerous telephone calls, and an auditor was denied access
           to the borrower's office. Based on the discrepancies discussed above and the borrower's
           failure to meet with us, we have referred this loan to the Investigations Division. [4, 6, &
           7(A), (B), & (C)]

        •	 Repayment Ability The best evidence of repayment ability for an ongoing business is
           sufficient cash flow from prior operations. Instead of using historical financial information to
           project cash flow, the lender used interim financial data, which was inaccurate, to show cash
           flow was sufficient to service the debt. The 1996 income statement showed gross revenues
           of [EX. 4] and net income of [EX. 4]. Gross revenues and net income on the verified 1996
           tax return were only 54 percent and 14 per cent, respectively, of figures on the financial
           statements. Based on the tax return information, the borrower lacked the ability to repay
           the loan. SOP 50 10 3, Chapter 2, paragraph 13 states the ability to repay the loan from
           cash flow of the business is the most important consideration in the loan making process.

        •	 Creditworthiness The lender did not report to SBA that its borrower had a bad credit
           history with several tax liens and judgments. The borrower's credit report showed 11 tax
           liens (including two Federal tax liens) and 3 civil judgments totaling $28,152 for 1991
           through 1996. The credit report and lender's loan file indicated the borrower was unlikely
           to conform to the terms of the loan agreement and was not eligible for an SBA guaranteed
           loan. The lender informed SBA and the auditors that the borrower had cleared the liens
           and judgments. We could not determine if the liens and judgments had been cleared
           because the lender did not obtain proof from the borrower and the borrower refused to
           meet with us. According to 13 CFR 120.150, loans must be so sound as to reasonably
           assure repayment, and applicants must be creditworthy, including character, reputation, and
           credit history. Repeated failure to pay taxes indicates a less than creditworthy character.

Available Collateral was not used to Secure Loan

       One lender (sample number 18) did not require adequate collateral to secure a [EX. 4] loan
although the borrower reported two worthwhile assets - $195,000 equity in a [EX.4] residence and
$65,000 equity in a rental property. SOP 50 10 3, paragraph 16.a. states that to the extent worthwhile


                                                    5

assets are available from the applicant, adequate collateral is required. The lender informed us it did not
use either of the assets as collateral for the loan because the lender's past experience with the borrower
indicated he was a good credit risk. Since we are recommending rescission of the guarantee for this
loan, no action on obtaining additional collateral is needed.

Prohibited Fees were Paid and Compensation Agreements were not Prepared

         Agents for two lenders charged one borrower a broker fee and another borrower a loan
referral fee. Procedures to regulate fees charged borrowers are in 13 CFR 103.5. Applicants, agents,
or packagers must execute a compensation agreement and provide a copy to SBA. The compensation
agreement provides that the agent or packager will not charge an amount deemed by SBA to be
unreasonable. The agreement also provides for a refund to the borrower of any sum in excess of the
amount deemed reasonable. The types of fees a lender or an associate may not collect from the
borrower or share with third parties are set forth in 13 CFR 120.222. This section specifically prohibits
agents or lenders from charging an applicant any commitment, bonus, broker, commission, referral or
similar fees.
         [FOIA EX. 4] loan (sample number 23) was approved to purchase real property and to
provide working capital. The required compensation agreement or report to SBA was not prepared
although the borrower was required to pay a broker about one percent of the loan amount. The
borrower stated he paid the broker [EX. 4] for the loan. The broker stated both the lender and the
borrower paid him a one per cent fee. Since the compensation agreement was not prepared and
submitted, SBA was unaware that a broker fee was paid. As of August 31, 1998, the loan was
current.
        [FOIA EX. 4] (sample number 30) was approved in [EX. 4] for building improvements,
repayment of three debts, and related costs. A compensation agreement was not prepared and
submitted to SBA showing that the borrower was charged a loan referral fee of $11,600. The
borrower confirmed he paid the fee. If the compensation agreement had been properly prepared and
submitted, SBA would have been aware of the referral fee paid and could have taken appropriate
action. As of August 31, 1998, the loan was current.
Relationship of Loan Deficiencies to SBA Oversight
         All of the loans with deficiencies were originated when SBA had limited or no oversight of the
lender’s loan processing and disbursing. For certain loan processing and disbursing actions, an SBA
district office would normally be unaware of how and when the actions were done because no
documentation of the actions were required to be submitted to SBA. These actions include, but are not
limited to, equity injections, IRS verifications, and use of loan proceeds. District offices are unaware of
almost all actions for loans processed under PLP procedures.
         All deficiencies identified were processing or disbursing actions not normally reviewed by or
reported to SBA under existing procedures. Therefore, the deficiencies generally would not be
identified by SBA until after the loan defaulted and the lender requested that the guarantee be honored.
Reasons for lender deficiencies
        Because lenders were responsible for all the deficiencies identified, we determined why the
deficiencies occurred. Lenders provided the following reasons:



                                                     6

       Loan officer chose to use other than SBA policy                   10 deficiencies
       Loan officer made an unintentional error	                         10 deficiencies

       These issues will be further addressed in a summary audit report on the 7 (a) Loan Program
because actions to minimize SBA’s risk must be implemented Agency-wide.

Recommendations

       We recommend that the Office of Borrower and Lender Servicing take the following actions:

       1.A.	   Direct the Fresno Servicing Center to write a letter to the lenders concerning the
               deficiencies found in loan origination for samples numbers 8, 14, and 18 and request the
               lenders to release SBA from its guarantee.

       We recommend that the Los Angeles District Office Director take the following actions:

       1.B.	   Rescind the guarantee for sample number 22. (Based on the actions taken by the
               District Director after we brought the ineligible use of proceeds to his attention, the loan
               has been paid in full.)

       1.C.	  Require the remaining equity injection of $83,400 for sample number 15 be made
              or notify the lender that SBA may deny liability in whole or part if requested to
       purchase the guarantee.




                                                    7

        1.E.	   Require the lenders’ agents to refund the referral and broker fees charged borrowers
                for sample numbers 23 and 30 and advise the lenders and their associates to refrain
                from charging or collecting commission, broker, referral, or similar fees from borrowers.

        1.F.	   Re-emphasize to lenders their responsibility to comply with SBA loan requirements,
                including ensuring

                        •	   loans are for eligible purposes,
                        •	   loan proceeds are used for authorized purposes,
                        •	   SBA approval is obtained for any loan agreement modifications,
                        •	   required cash and equity injections are made and properly documented,
                        •	   financial data are verified with the IRS prior to disbursement of loan
                             proceeds,
                        •	   borrowers are creditworthy and eligible for loans,
                        •	   borrowers have evidence of repayment ability,
                        •	   potential fraud is reported to SBA,
                        •	   loans are adequately secured,
                        •	   joint payee checks are used,
                        •	   compensations agreements are completed and sent to SBA, and
                        •	   borrowers are not charged commission, broker, referral and similar fees.

SBA Management’s Response

        The Deputy Associate Administrator, Office of Borrower and Lender Servicing, verbally stated
he would instruct the Fresno Servicing Center to write a letter to the lenders for sample numbers 8, 18,
and 14 informing them of the deficiencies concerning origination and requesting the lenders to release
SBA from the guarantee. The letter will also inform the lenders that if they do not release SBA from its
guarantee, SBA may deny liability, in whole or in part, if purchase is requested.

         The District Director agreed with the finding and stated that the following actions were being
taken to implement the recommendations. The District Office will require the borrower to make the
remaining equity injection for sample number 15 and notify the lender that SBA may deny liability, in
whole or in part, if purchase is requested, because the lender failed to require evidence that the equity
was injected. Lenders for sample numbers 5 and 17 will be notified that SBA may deny liability in
whole or in part, if purchase is requested, unless the lenders obtain IRS verifications and the data agrees
with borrower submitted financial information. Lenders for sample numbers 23 and 30 will be
requested to return disallowed fees to the borrowers. The lenders and their associates will be advised
to refrain from collecting disallowed fees. To reduce risk and to ensure that only eligible loans are
made, the District Office will re-emphasize to lenders their responsibility to comply with SBA
requirements.
Evaluation Management’s Response

        The actions taken or planned to be taken by the Office of Borrower and Lender Service and
the District Director meet the intent of the recommendations.

FINDING 2 Canceled Loans were not Reported to SBA



                                                    8

        Two loans totaling $700,000 were canceled by the lenders without informing SBA. If the
lenders had promptly notified SBA of the cancellations, loan guarantees totaling $530,000 could have
been made available to other lenders and small business entities.

         A loan for [FOIA Ex. 4] (sample number 16) was approved in [FOIA Ex. 4] to purchase a
business and provide working capital. After learning the business had an outstanding lawsuit, the
borrower canceled the loan in mid-1997. The lender refunded the borrower's fees in December 1997.
 At our request the lender informed SBA, in writing, of the loan cancellation in February 1998, some 8
months after the borrower canceled the loan. SBA canceled this loan after receiving the lender’s written
notification. The lender's failure to report the cancellation resulted in $450,000 in SBA guarantee
authority being temporarily unavailable to guarantee loans for other borrowers.

         A loan (sample number 31) was approved in [FOIA Ex. 4] for new construction and working
capital. The loan agreement was never executed because the borrower could not be located and was
reported missing. At the request of the borrower's son, the lender canceled the loan in May 1997, but
did not inform SBA of the cancellation until our audit, more than 8 months later. As of July 10, 1998,
SBA had not canceled the loan. As a result, $80,000 in SBA guarantee authority was unnecessarily
obligated which could have been used to guarantee other loans.

Recommendations

       We recommend that the PLP Loan Processing Center Director take the following action:

       2.A.    Cancel the guarantee authority for sample number 31.

       We recommend that the Los Angeles District Director take the following action:

       2.B.   Re-emphasize to lenders their responsibility to comply with the requirement to
              notify SBA promptly whenever a change in the loan status warrants       withholding or
       not making a disbursement.




                                                   9

SBA Management’s Response

        The Center Director stated that the guarantee authority for sample number 31 has been
cancelled.

         The District Director did not directly respond to the recommendation to re-emphasize to lenders
to notify SBA promptly when changes in loan status warrants withholding or not making disbursement.
The District Director did indicate, however, that future training would stress the items noted in the audit
report to ensure compliance.

Evaluation Management’s Response

         The PLP Loan Processing Center implemented the recommendation. The District Director’s
response satisfies the recommendation because the items noted in the report will be included in future
lender training.

                                              Other Matters

Lender Non-compliance with SBA Policies and Procedures

       During the audit, we reviewed three loans (sample numbers 8, 18, and 22) processed by the
same PLP lender. The lender violated SBA policies and procedures in processing each of the loans.
The lender did not-­
       • verify seller financial information,
       • verify borrower tax return information prior to loan disbursement,
       • prohibit a borrower from violating the loan agreement,
       • determine a borrower’s creditworthiness and ability to repay the loan, or
       • adequately secure a loan.
         We brought the discrepancies to the attention of the Los Angeles District Director and his staff
during the audit. As a result, the District Director wrote a stern warning letter that directed the lender to
correct the systemic problems found during the audit. The lender reported it immediately reviewed its
loan operations and took action to correct the problems identified.

        We provided the information on this lender to the staff of the Acting Associate Administrator for
Financial Assistance for consideration in scheduling and conducting a PLP review of the lender.

Borrower Misrepresentations

        The auditors requested criminal history reviews for the principals of each loan identified as a
borrower. The results of the criminal history checks showed that four borrowers did not state they had
a criminal history, when in fact they did. Their histories, however, did not contain offenses that were
serious enough to preclude financial assistance from SBA.




                                                     10

                                                                                                            Appendix A
                     Schedule of Loans Reviewed and Their Status as of August 31, 1998

SAMPLE    LOAN                    BORROWER                  GUARANTY          LOAN           LENDER           TYPE
NUMBER   NUMBER                                                (%)           AMOUNT           LOAN
                                                                                             STATUS
   1       [      FOIA Exemptions 4, 6, and 7(A)(B)&(C)                                  ]     Current      CLP
   2                                                                                           Current      PLP
   3                                                                                            -------­    ---­
   4                                                                                           Current      CLP
   5                                                                                          Past Due      REGULAR
   6                                                                                           Current      CLP
   7                                                                                           Current      REGULAR
   8                                                                                           Current      PLP
   9                                                                                           Current      PLP
  10                                                                                           --------­    ---­
  11                                                                                           Current      PLP
  12                                                                                           Current      PLP
  13                                                                                           Current      PLP
  14                                                                                           Current      PLP
  15                                                                                           Current      REGULAR
  16                                                                                          Canceled      PLP
  17                                                                                           Current      REGULAR
  18                                                                                           Current      PLP
  19                                                                                         Paid in Full   REGULAR
  20                                                                                          Canceled      CLP
  21                                                                                           Current      PLP
  22                                                                                         Paid in Full   PLP
  23                                                                                           Current      PLP
  24                                                                                           --------­    ---­
  25                                                                                           Current      PLP
  26                                                                                           Current      REGULAR
  27                                                                                           Current      CLP
  28                                                                                           Current      PLP
  29                                                                                           Current      PLP
  30                                                                                           Current      REGULAR
  31                                                                                          Canceled      PLP
  32                                                                                           Current      PLP
  33                                                                                           Current      PLP
                                                                                                                       Appendix B

                              Schedule of Procedures Reviewed and the Related Loans with Discrepancies

                           Procedures Reviewed                                              Loans with Discrepancies

1) Inadequate evidence of repayment ability                                [ #18]
2) No repayment ability calculation documented
3) Lack of character/creditworthiness (including lack of credit reports)   [#18]
4) Conflict of interest
5) Alternative sources of funds availability
6) Size standards
7) Ineligible loan purpose or ineligible use of proceeds                   [#14]
8) Unallowed business type
9) IRS verification not done                                               [##’s 5, 8,14, &17]
10) IRS verification done after disbursement of loan                       [##’s 6 & 18]
11) False/inaccurate financial information provided                        [# 18]
12) 1050 Settlement sheet signed in blank
13) 1050 Settlement sheet not prepared
14) Disbursements not made per loan authorization requirements
15) Joint payee checks not used
16) Use of proceeds not verified or not used in accordance with ALA        [#22]
17) Required equity injections not verified                                [##’s15 & 27]
18) Adverse change not reported
19) All available and needed collateral not used                           [#18]
20) Disbursements not per the required time frame
21) Required standby agreement not obtained
22) Unallowable fees charged borrowers                                     [##’s 25 & 30]


FOIA Ex. 4

                                                                APPENDIX C
                                                                (1 of :l)




'-tel         Sept~      21, 1••1

'feu          Peter J. HcClintock
              .ba,iataat I~ctor General. ror AII41t:1.nq
              Office of IMpeGt.or General.
              Alberto G • Alvarado
              D1atrict Director
              AUdit 01 Loa b;el. . Diatrict Office 7 Ca,     r.ou.
              Draft Audit aeport 110. l-e-r-ooa

     to~ tbo oppoR\mitr to COIIDUt OD tbe tJ.ftcl1Dp aDd
!'bank you
re~tioM CODt:aJaed 1D )'0= ~t aacUt: zwport nce1ftd                ia tb1a
office OD Auquat 21, 1111. .e bell... t:hat: the AleDqf'a polle1ea aDd
procedure. ~t be o~e"" aDd with your . . . utaDce ". will coati,..
to do . . .ryt:hJ.ng possible to . .1nt.aiD • porUolio that 1a ot the
h1gheat quaUty_
1ft that ~~ I .hOUld DOte that, . . n haft doDe hiJtorJ.cal.ly, oar
luder traiD1.D9 will ~1ze the 1aport&Dce ADd n.ce•• ity that
eligibility iawes be addruSK aDd that ODly eUq1ble loan. be . . . .
. . viii Riterate, .. we haft daDe ill tbe paR, aDd tra1D oar leDdiDg
partnen OD the necessity fo~ co.plianc:e tdtb 'tbe tu::.. &ad coDditioDa
of the LoaD Authorization aDd th4I nece•• ity tMt f1Daacial data be
...rUied prior to disburHMDt. Aa you are aware ". pre••ntly coDCluct
D\DeZ'OUS leDder uaiDlA9 aeaaioM each ~ ,~ 11 th1a y.azl to t.ep,
leDCIen appr.u.ct of SM' a polici••• Dd prooecl~ vbil. al.wo J.DfoDd.Dt
thea of the potential coDaequence. of tMiJ: failuze to c:c.ply_

III our future traininq va rill .tress the it... noted 1D the aadit to
eD8UZ'8 COIIPl.J.aDc:e. In additioD, we vill "CODtiDue our onvoift9 prac:t1ce
of coDdUctiD9 reqular train1D9 for our Loan speciallst. aDd Attorneys
on eliv1bility i.aue8, f1nancial requirelD8nu, fraud "us. . ., aDd
;eneral SM reVUlaticma, VUicleliDU, polic1. ., .ad proce~.
With reqard to tM ~c re~Ddatiou of the draft ~ud1t zeport,
DOted oa pap " the ~ beJel. . Di.trict Offic:a 1a 1ft ~ proaua of
do1Dq tile tolloviD91

        • 	 bqUiriD9 that tM r ...1D1na eaui ~v 1.DiectiOD be . .n Oft i t _
           ma.r 1S  c        _E>< 4-      .                        :J vbU.
           1DtoEminv the lender that SM may daDy liabill ty in whole or in
           part, if purc:M.- 1a reque.ted, baaed upon the lender' a failure
           to require rrideDCe that: t.he equJ. t:y va. injected •

        • 	RotJ.fyinq the l.Deter. tor sldaple nmaber 5 (t Ex I Ll
                                         :J aDd sample nuaIbe~ 17 - [ E~   4­
                                                                       nt"ru-.uu   ~
·'                                                                     (l of 2)
                 _.       . £;<. 4 ~ S            :: tbat SBA _y delay Uabillty
                 ia tIbolA oz J.a put. if parabue .u ~, 1IDl,e8. %U
                 ftritiaaUou an obCaiDed aad tM data awn- vitb t:be ~iDaDaial
                 1a.fomaUoa .ut.i.tucI bf tile boA:lNa •.
                ChnDtbftical.ly, ve DOte tat. the 1aoJc o~ ma ~U1caUoa by
                __ ject paniaipuU 18 tbe ~ di8cnpucy DOted 1D tile
                ...u.t. !be 1.0. ADJel.. DiaUiat OfUce v11l tban~on
                tJaU 8\abject 1Ja htun l.ude~ ucI LoU Jpect.-l t -t tn1ni.D9 ud
                would 8UV9Nt the    n.   Ceate&- dO lJ.JtevUe.)
                                                                                   .tn..
               • a.quir1D9 that the l.eDc!u. a:etum cU.Hll.01Md .f. . . to the
                 ~~ iA •        ..,le.2S e.
                                  J aDd 30   r:
                                               C'< 4
                                               £><:.4        __        •.
                                                                               _

                          J I t - I be clUt1CU1t t.p"y foz sar. to ~~ •
                 kokR 1:0 nhZa a t .. • iDee ". baW DO CODtnGtaa1 nlat1cmabip
                with tbe koal' aad tba ant. 1a DOt __ ject to 1M
                ~cUoa. fte 1.0. _el.. DUtdGt Oft1ce vUl, bow. . .,
                a.riH tM laden ad tbeU uRC1atU to ntniD nca
                ooUeoti,DIJ   ~doD, bZoD¥, ~Mftl. ~               .u.uar     r ...     tzc.
                .~.




     cc:         .uc1at. Daputy Jdwin •• trator tor capital Acce ••
               Aasociate Ada1D.18trator for field Operat1oaa
           ~                                                       I



           L                                                       J


                                                                                        TOTR.. P.B3




                                              2

                                                                                           Appendix D


                              OFFICE OF INSPECTOR GENERAL


                                AUDIT REPORT DISTRIBUTION



     Recipient                                                                        Number of Copies

Administrator --------------------------------------------------------------------------------- 1

Deputy Administrator ------------------------------------------------------------------------- 1

General Counsel ------------------------------------------------------------------------------ 2

Associate Administrator for
 Field Operations ---------------------------------------------------------------------------- 1

Associate Administrator for
 Financial Assistance ------------------------------------------------------------------------- 1

Deputy Associate Administrator for
 Financial Assistance ------------------------------------------------------------------------- 1

Associate Deputy Administrator for
 Management & Administration -------------------------------------------------------------- 1

Financial Administrative Staff ----------------------------------------------------------------- 1
 Attention: Jeff Brown

District Director,
 Los Angeles District Office ----------------------------------------------------------------- 1

Director,
 Preferred Lender Program Processing Center ----------------------------------------------- 1

General Accounting Office -------------------------------------------------------------------- 1
